     Audit of USAID/Bosnia-Herzegovina’s
Bosnian Reconstruction Finance Facility Program
                 for the Period
    October 1, 1998 through March 31, 1999

       Audit Report No. B-168-00-004-P
                 February 25, 2000
                             United States Agency for International Development
                                  Office of the Regional Inspector General
                                              Bank Center, Granit Tower 5th floor
                                          Szabadság Tér 7-9, Budapest, Hungary 1944
                                                  Telephone: 36-1-475-4603
                                                   Facsimile: 36-1-475-4633



                                                                                                          February 25, 2000

MEMORANDUM

TO:                 USAID/Bosnia-Herzegovina, Edward L. Kadunc, Jr.

FROM:               RIG/Budapest, James R. Bonnell

SUBJECT:            Audit of USAID/Bosnia-Herzegovina’s Bosnian Reconstruction Finance Facility Program
                    for the Period October 1, 1998 through March 31, 1999

This is our final report on the subject audit. In preparing the report, we considered your comments on the
draft and included them in Appendix II. Although target figures for loan volume differ, we found that,
regardless of which target figure is used, loan activity was significantly behind schedule. During the next
reporting period we plan to pursue the issue of differing target figures.

During the period covered by the audit, we noted that there were various reasons why loan activity did not
meet targets—increased emphasis on loan quality and monitoring, making smaller loans to smaller
enterprises, and a new primary implementing contractor. The Barents Group replaced Development
Alternatives, Inc., the original implementing contractor, on October 1, 1998.

We issued three preliminary audit findings for this reporting period on which the Mission took corrective
action. This report makes no new recommendations; therefore, no action on the report is required by
USAID/Bosnia-Herzegovina.

We appreciate the cooperation and assistance provided to the auditors on this assignment.




U.S. Address: Regional Inspector General – USAID; American Embassy Budapest; Washington D.C. 20521-5270
Background

Bosnia-Herzegovina declared its independence from the former Socialist Republic of Yugoslavia in March
1992, following the lead of Slovenia and Croatia which declared their independence in 1991. The move
to independence precipitated a war in Bosnia-Herzegovina that lasted from 1992 until the signing of the
Dayton cease-fire agreement on October 10, 1995. Following the cease-fire, Bosnia-Herzegovina was
faced with keeping the peace and restructuring its war-torn economy. The Dayton Agreement viewed
economic rehabilitation and reconstruction as an essential element in achieving peace. The Agreement
negotiators believed that the people must have an economic stake in the process; therefore, economic
reconstruction, economic institution building, and promoting a market economy were deemed to be major
factors in ensuring lasting peace.

In 1996, there were signs of economic recovery such as repairs to basic infrastructure. However, many
key economic institutions and businesses were not fully functioning. The country’s banking system was
technically insolvent and burdened with non-performing loans. On March 29, 1996, the House Joint
Resolution 170 (Public Law 104-122) appropriated $198 million for assistance to Bosnia-Herzegovina to
address some of these concerns. These funds were to be used for economic revitalization ($145 million);
police training and monitors ($45 million); demining ($5 million); and operating expenses ($3 million).

USAID became involved in May 1996 when the Assistant Administrator for the Bureau for Europe and
the New Independent States (now called the Bureau for Europe and Eurasia) authorized the five-year $278
million Bosnian Reconstruction Finance Facility (BRFF) program. These funds were to be used for financial
support of post war reconstruction and economic revitalization, as well as for increasing employment of the
general population, refugees, and demobilized soldiers. On May 7, 1996, a grant agreement was signed
between the United States and Bosnia-Herzegovina to obligate the program’s initial $27.5 million. This
amount was transferred by USAID to Bosnia-Herzegovina in July 1996. As shown in the following table,
USAID has transferred a total of $232.9 million to Bosnia-Herzegovina.




                                                    2
                   SUMMARY OF OBLIGATIONS AND FUNDS TRANSFERS
                               AS OF MARCH 31, 1999


 OBLIGATING                                    AMOUNT                     DATE OF
 DOCUMENT                                       (millions)             FUNDS TRANSFER

 Grant Agreement                                         $27.5                 July 1996

 Amendment #1                                             12.5             November 1996

 Amendment #2                                             19.5                 May 1997

 Amendment #3                                             40.0             September 1997

 Amendment #4                                             30.0                April 1998

 Amendment #5                                             65.4             September 1998

 Amendment #6                                             38.0              February 1999

     Total Obligated and Transferred                   $232.9


Audit Objective

The objective of this concurrent audit was to determine whether USAID/Bosnia-Herzegovina and the
implementing contractors used economic revitalization assistance funds designated for the Bosnian
Reconstruction Finance Facility Program for the purposes authorized under the Grant Agreement and Public
Law 104-122.

The Office of the Inspector General has issued periodic reports on the Bosnian Reconstruction Finance
Facility Program. This report is the eighth such report on the program.1 Appendix I contains a discussion
of the scope and methodology for the audit.




         1
           See Audit Report Nos.: B-168-97-002-P, dated March 26, 1997; B-168-97-006-P, dated June 27, 1997; B-168-98-
001-P, dated October 10, 1997; B-168-98-004-P, dated March 26, 1998; B-168-99-001-P, dated October 30, 1998; and B-168-
99-004-P, dated August 18, 1999. Also, see Memorandum Report No. B-168-98-003-S, dated July 21, 1998.


                                                          3
Audit Findings

Did USAID/Bosnia-Herzegovina and the Implementing Contractors Use Economic
Revitalization Assistance Funds Designated for the Bosnian Reconstruction Finance
Facility Program for the Purposes Authorized Under the Grant Agreement and
Public Law 104-122?

USAID/Bosnia-Herzegovina and the implementing contractors generally were using the economic
revitalization assistance funds designated for the Bosnian Reconstruction Finance Facility (BRFF) program
for the purposes authorized under the grant agreement and Public Law 104-122. However, six of the nine
borrowers visited during this period used loan funds for purposes that were not allowed, and two of the 12
agent banks visited have not fulfilled their responsibility under agreements.

Although BRFF has experienced some problems with borrowers and banks, USAID/Bosnia-Herzegovina
has taken corrective action against the borrowers and the banks including civil actions.


BRFF Program—What can funds be used for?

Bosnia-Herzegovina’s physical infrastructure sustained extensive damage during the war. Reconstruction
requires financial resources and long-term credit for the rehabilitation and revitalization of Bosnian
businesses, which could then offer sustainable employment opportunities for the general population,
especially demobilized soldiers and refugees. In response to this requirement, USAID designed the BRFF
program, a $278 million balance-of-payments initiative intended to “jump-start economic growth and
generate employment opportunities for the general population.” The program was officially initiated with
the signing of the grant agreement on May 7, 1996. Of the planned $278 million available for the BRFF
program, $256 million was allocated for the loan program and $22 million for technical assistance, training,
and support costs.

Loan Program. To implement the BRFF program, USAID signed a task order with Development
Alternatives, Inc., on May 16, 1996, to establish and operate Business Finance. The task order also set
targets of $45 million in loan recommendations that were expected to create 6,750 jobs through December
31, 1996. As the primary implementor of the BRFF loan program, Business Finance, with offices in
Sarajevo, Tuzla, Banja Luka, and Brcko, recommends loans to USAID/Bosnia-Herzegovina for approval.
USAID/Bosnia-Herzegovina formalized performance targets—the dollar volume of loan recommendations
and the number of jobs to be generated monthly—with Development Alternatives, Inc., in a task order
modification and a subsequent contract that expired on September 30, 1998.

                                                     4
When the Barents Group assumed responsibility for Business Finance on October 1, 1998, USAID set
similar performance targets. According to the terms of Barents’ contract, a volume of $10 million worth
of recommendations on the average, with an associated employments impact of 1,500 jobs is expected
each month during the contract period. Applying the contract terms to the six months ending March 31,
1999, Business Finance would be expected to increase loan recommendations by $60 million resulting in
9,000 new jobs. The cumulative figures would be $315 million in loan recommendations and 47,250 jobs.

However, as Mission officials pointed out, $256 million is the total authorized on-lending program and is
the only target mentioned in the program assistance approval document. Furthermore, there was no
mention of any specific employment targets in the approval document. Because the original contractor
offered an employment target based on experience, USAID/Bosnia-Herzegovina included it as a target in
the task order and subsequent contractual documents.

Technical Assistance. The Barents Group’s contract also provides for training to (1) enable Bosnian
bankers to offer a range of financial services to private sector companies and undertake responsibility for
a portion of the lending activity and (2) prepare Bosnian counterparts to eventually assume responsibility
for the management of the program.

In addition to creating Business Finance, USAID also signed a task order on June 28, 1996, with The
Recovery Group to provide assistance to businesses seeking loans from the BRFF and World Bank credit
programs and to assist enterprises in achieving long-term viability. To meet its objectives, The Recovery
Group established Business Consulting which now has offices in Sarajevo, Tuzla, Banja Luka, and Brcko.

BRFF Status —What were funds used for?

Loan Program. Generally, borrowers are financing building reconstruction, equipment purchases, raw
material acquisitions, and some operational expenses with the loan proceeds. Since the program’s inception
through March 31, 1999, USAID/Bosnia-Herzegovina approved 426 loans (totaling $141.8 million) of the
432 loans (amounting to $143.7 million) that Business Finance recommended. USAID/Bosnia-Herzegovina
obligated and disbursed $232.9 million to the Government of Bosnia-Herzegovina to assist with their
balance of payment needs. (See Appendix IV for details on budgeted, obligated and disbursed amounts.)
 The Government of Bosnia-Herzegovina disbursed $114.2 million for 345 of the 426 approved loans.

The $143.7 million in loans that Business Finance recommended to USAID/Bosnia-Herzegovina since the
beginning of the program fell short of the program targeted amount of $256 million.

In previous reporting periods, shortfalls were attributed to systems and personnel restructurings intended
to streamline loan production, a shortage of lending officers available to analyze and process applications
and a change in contractors. During this reporting period, Business Finance experienced a decrease in loan


                                                    5
volume from the prior six month period—from about $33.8 million to $12.5 million for 64 loans. According
to program personnel, this shortfall was the result of factors such as:


        !       Increased emphasis on loan quality and loan monitoring

        !       Increased emphasis on lending smaller amounts to smaller enterprises

        !       New primary implementing contractor


Technical Assistance. During this six month reporting period, Business Finance conducted seminars and
workshops for bankers, prospective borrowers, consultants and Business Finance staff.
The seminars covered the credit application process, the quarterly monitoring report,and the environmental
aspects of the lending program. Workshops were held for the lending associates and the internal audit
group conducted site visit training for the benefit of the field and lending associates. To further strengthen
banks’capabilities, USAID is in the process of developing a new bank training program.

Business Consulting reported that since the inception of the program through March 31, 1999, it had
prepared 563 diagnostics, formerly referred to as loan application supporting documentation. The
organization also completed 926 performance improvement projects designed to help enterprises restart
and strengthen operations and establish initial viability and direction. Business Consulting was achieving its
targets for almost all of its activities.

Business Consulting has continued to operate a turnaround consulting practice, assisting borrowers who
were having problems in specific areas, e.g. marketing. Through March 31, 1999, Business Consulting
reported that it completed 68 turnaround actions. Business Consulting closely coordinates its efforts with
Business Finance.

As of September 30, 1998, Business Consulting completed its original contract period for the program.
 For this six month reporting period, Business Consulting operated under a “no-cost” extension period
granted by USAID.

(See Appendix III for detailed information on the status of the BRFF program.)




                                                      6
Results of Audit Tests

Our audit this reporting period focused on the status of loan activities and the adequacy of agent bank and
loan monitoring efforts. As in previous reporting periods, in carrying out our audit work we also reviewed
and tested the audit results of Business Finance’s Internal Audit Unit. Satisfied with the auditors’
qualifications and independence, we concluded that we could rely on the results of the auditors’ work. The
audit unit, consisting of an American audit manager and two Bosnian auditors, performs site visits to agent
banks and borrowers, and reviews operations within the Business Finance organization. As previously
reported, we believe that this unit is playing an important role in ensuring accountability for this USAID-
funded program. (Appendix I contains a more detailed description of our audit scope and methodology.)

During this reporting period, Business Finance’s Internal Audit Unit visited a judgmental sample of 9
borrowers. Since the program began, auditors have visited 115 of the 345 borrowers. The Business
Finance Internal Audit Unit conducted 66 visits and RIG/Budapest auditors made 49 visits. When
appropriate, reconstruction work and equipment purchases funded by the loan proceeds at the borrowers’
place of business were inspected. Also during this period, the Business Finance Internal Audit Unit
performed 15 visits to 12 agent banks responsible for servicing most of the loans in the program. Since the
inception of the program, RIG/Budapest and Business Finance auditors have visited 18 of the 24 agent
banks actively participating in the program and representing over 95% of the loan volume. Where
appropriate, compliance with the loan procedures and the agreements with agent banks were tested.

Borrower visits by Business Finance’s internal auditors focused on visits to borrowers suspected of possible
improprieties. Six of the borrowers visited had used some of the loan funds for purposes not originally
intended. For instance, one borrower bought a luxury car instead of a pickup truck as planned. Due to
pressure from Business Finance, this borrower returned the loan funds used to purchase the luxury car.
Business Finance is pursuing claims against borrowers who have not used the loan funds for the agreed-
upon purposes. As of March 31, 1999, Business Finance was actively pursuing 17 court cases involving
criminal, litigation and foreclosure actions.

Bank visits by the Business Finance internal auditors highlighted several problem areas. All banks need
improvement in their monitoring of the loans and in their disbursement verification procedures although some
banks are more competent than others. Business Finance classified the 12 primary agent banks visited this
reporting period in one of five categories ranging from superior to unacceptable. Only one bank was
satisfactory; four were considered acceptable but in need of improvement. Five banks were rated
unacceptable and in need of significant improvement. Two of the banks were considered below acceptable
and are the subject of one of our findings discussed below.

At the completion of our fieldwork, we issued three Reports of Audit Findings (RAF) on August 17, 1999
that addressed the following:
        • RAF No.10, the conduct of the agent banks,


                                                     7
        •   RAF No. 11, the issue of purchases made in Serbia, and

        •   RAF No. 12, the cash flow management of the BRFF accounts.


We have included the details of these findings in this section, along with a summary of the Mission’s
response as to the corrective actions being taken.


Agent Bank Problems. RAF No. 10 focused on two agent banks in the BRFF program that have
committed repeated serious violations of their responsibilities under their agency agreements. Civil and
possible criminal cases against both banks are being pursued aggressively by USAID and Business Finance.
 Due to the sensitivity of this issue, the names of the banks and borrowers are not included in this report.

Instances of deceptive and inappropriate actions by one bank are illustrated below in the four examples of
BRFF loans made to borrowers.

            - Loan funds were disbursed directly to the account of the first borrower without any
            supporting invoices. A month later, the funds were transferred back to the bank. The bank
            then began to make short term loans to this borrower.

            - In submitting the loan application to Business Finance, the bank deliberately concealed the
            actual status of its own short term loans to the second borrower. The BRFF loan funds were
            used mostly to repay the bank’s own loans rather than for the purposes intended.

            - In submitting the loan application to Business Finance, the bank deliberately concealed the
            actual status of its own short term loans to a third borrower. The BRFF loan funds were used
            mostly to repay the bank’s own loans rather than the purposes intended. The borrower stated
            that      the       bank      blackmailed        him      into    taking    a      short-term
            bank loan in order to obtain a BRFF loan.

            - In submitting A construction company, the fourth borrower, did not use the loan funds as
            intended but rather used the funds to repay existing debts. The bank transferred loan funds to
            the equipment suppliers who then transferred the funds back to the borrower. The fourth
            borrower used most of the funds to repay various debts, including debts previously owed to
            the bank.


Instances of deceptive and inappropriate actions by the other bank are illustrated below in the three


                                                     8
examples of BRFF loans to borrowers shown below.

            - The first borrower instructed the bank to make a loan repayment on the BRFF loan. The
            bank seized the payment and applied it to their own loan with the borrower. A bank official
            stated that “. . .the Bank has acted in accordance with its right to help itself.”

            - The bank used BRFF loan funds to pay off its own short term loans, and required a second
            borrower to purchase bank stock. The bank hid the actual use of over half the loan funds with
            dubious invoices and submitted monitoring reports to Business Finance that presented an
            unrealistically positive picture.

            - The bank never filed a mortgage to perfect Business Finance’s collateral interest in the third
            borrower’s real property. It was the borrower who eventually filed a mortgage on behalf of
            Business Finance but only after another bank’s mortgage had been filed first, thus placing
            Business Finance in a subordinate position.


We recommended that, after consulting with Business Finance on legal strategy, USAID/Bosnia-
Herzegovina terminate the agency agreements with these banks as soon as possible.

The Mission responded that despite serious attempts by the Business Finance contractor to get the two
banks to remediate their practices and adhere to their detailed agency agreements, additional investigations
revealed highly improper activities by each bank which jeopardized the probability of full and timely
repayment of several loans. For both banks, detailed strategies were prepared and recommended by
Business Finance, with active Mission consultation, to (1) recover and/or safeguard the program’s loaned
assets through appropriate legal action; (2) inform and involve the Federation Banking Agency (Bosnia-
Herzegovina’s banking supervision authority); (3) provide the authorities with evidence of improper banking
conduct and possible criminal activity; and, (4) formally sever the Business Finance agency agreements with
each bank once USAID’s interests under the first three categories had been secured. These strategies are
currently being implemented.

Purchases From Serbia. RAF No. 11 addressed the issue of borrowers in the Republika Srpska using
loan proceeds to purchase items from Serbia. For instance, Business Finance internal audit testing at two
agent banks noted that about 20 percent of the purchases at one bank and about 30 percent of the
purchases at another bank were made from Serbia. According to the program grant agreement between
Bosnia-Herzegovina and the United States, the grant excludes the use of loan proceeds for the purchase
of goods or services which are shipped from or produced in several countries, one of which is Serbia.

We recommended that USAID/Bosnia-Herzegovina take immediate action to resolve this issue by enforcing
the exclusion or modifying the agreement so that the exclusion is no longer applicable. As Serbia has been


                                                     9
an integral part of the Balkans economy, USAID and its legal counsel concluded that restricting financed
enterprises from purchasing needed supplies and equipment from Serbia using BRFF funds would impede
the recovery of these enterprises. Therefore, USAID has clarified this issue by amending the agreement
with the Government of Bosnia-Herzegovina to permit purchases from Serbia.

Cash Flow Management. RAF No. 12 questioned the cash flow management of the program. The
Government of Bosnia-Herzegovina maintains two Deutschmark accounts at the Bank of America that are
dedicated for use by the BRFF program. Both accounts have balances which are excessive to the current
needs of the program. For instance, at July 31, 1999, the accounts held about $135 million which we
considered excess to the program needs for the next three months. The increase of funds in the program
accounts during the past year occurred due to a slowdown in new loans and a reallocation of resources to
focus attention on loan monitoring and problem loans.

Although the funds are used for the loan program, the grant agreement states that the amounts obligated are
“in support of the balance of payments needs of the State of Bosnia and Herzegovina”. USAID noted that
this balance of payments support is the primary objective of the program and that the secondary purpose
is to provide credit to the productive sector in order to jump-start the economy after the four-year civil war.

We recommended that USAID follow U.S. Treasury policies and match disbursements with the lending
needs of the program. USAID replied that they will take all necessary steps to comply with our
recommendation while still honoring the spirit and intention of the Grant. However, USAID officials noted
that, as part of a multi-donor effort to assist Bosnia’s economy, their primary objective is not to tie
disbursements to the lending needs of the program but to help the Government of Bosnia-Herzegovina meet
their foreign exchange requirements.

As the Mission is taking appropriate corrective action in response to our preliminary recommendations, we
have not included these recommendations in our formal recommendation tracking system. However, we
will continue to review the conduct of the agent banks during our future audit work on this program.


Management Comments and Our Evaluation

USAID/Bosnia-Herzegovina officials agreed with the content of the report and their comments are included
as Appendix II to this report. In its response, Mission management described the specific actions being
taken to address each of our three preliminary findings—the improper conduct of two agent banks, the issue
of purchasing supplies and equipment shipped from or produced in Serbia, and the cash flow management
of the BRFF accounts. A summary of the Mission’s comments on each preliminary finding follows:

USAID/Bosnia-Herzegovina officials agreed that the two agent banks violating their agency agreement
should be removed from the program. Mission officials explained that despite serious attempts by Business

                                                     10
Finance to get the banks to correct their practices and adhere to their agreements, further investigations
showed highly improper activities by each agent bank. Therefore, Business Finance, in consultation with
the Mission, prepared detailed strategies for addressing deficiencies at the two banks. The Acting USAID
Mission Director approved the detailed strategies on August 19, 1999. In both cases, the agent bank
relationship was terminated and civil and legal lawsuits were prepared against both banks.

Regarding the issue of goods made in or shipped from Serbia, in the early days of the BRFF program,
Mission officials and legal counsel in Washington concluded that restricting USAID-financed businesses
from purchasing needed supplies and equipment from Serbia would hinder recovery of the businesses.
USAID/Bosnia-Herzegovina issued Program Implementation Letter Number 12, dated September 8, 1999,
clarifying its policy of encouraging BRFF borrowers to diversify and to reduce or eliminate their dependence
on Serbia as a source or market.

Finally, regarding cash flow management of the BRFF accounts, the Mission’s response addressed this
issue in depth. Referring to specific articles in the grant agreement, the Mission summarized its position by
reiterating that the amounts pledged by the U. S. Government were intended to help the Government of
Bosnia-Herzegovina and the private sector meet their foreign exchange requirements, and to meet higher
U. S. Government objectives. Therefore, it was not USAID’s primary objective to tie disbursement to the
lending needs of the program. USAID/Bosnia-Herzegovina officials explained how they attempted to match
disbursements with the lending needs of the program—while honoring the spirit and intention of the grant
agreement—by estimating the demand for the funds based on the best information available at the time initial
disbursement took place.




                                                    11
                                                                                             Appendix I
                                                                                             Page 1 of 3

                                              Scope and
                                             Methodology




Scope

The Office of the Regional Inspector General/Budapest is conducting a concurrent audit of USAID’s
Bosnian Reconstruction Finance Facility (BRFF) program activities in Bosnia-Herzegovina in accordance
with generally accepted government auditing standards. From July 1996 through March 1999,
USAID/Bosnia-Herzegovina obligated and disbursed $232.9 million through BRFF to the Government of
Bosnia-Herzegovina to assist with their balance of payment needs. Of the $232.9 million transferred to the
Government of Bosnia-Herzegovina $114.2 million has been disbursed as loans. During the period of this
audit from October 1998 through March 1999, USAID/Bosnia-Herzegovina obligated and disbursed $38
million. We conducted the audit from July 13 through August 7, 1999, at the USAID, Business Finance
and Business Consulting offices in Sarajevo.

In conducting our audit, as in prior reporting periods, we substantially utilized the work of the Business
Finance Internal Audit Unit. In order to rely on their work, we reviewed the generally accepted government
auditing standards pertaining to an auditor’s reliance on the work of other auditors. In accordance with
those standards, we were satisfied as to the auditors’ competence and objectivity. We also evaluated and
tested their work through inquiries and reviews of internal audit reports, working papers and audit
methodologies.

We did not audit the three BRFF program bank accounts maintained by the Central Bank of Bosnia-
Herzegovina (formerly the National Bank) during this period although we did review the cash management
of those accounts. Also, we did not audit the program’s financial statements shown in Appendix IV. We
did perform limited work on The Recovery Group’s Business Consulting activities.




Methodology

Audit methodology included file reviews, interviews and data analysis. We reviewed amendments to the
Grant Agreement Between Bosnia-Herzegovina and the United States of America for Reconstruction
Finance Facility, program documents, and contracts to determine BRFF program objectives and
restrictions. We reviewed accounting records and tested compliance with the loan procedures and the agent
bank agreements to assess whether internal control procedures were adequate and being followed. We
                                                                                              Appendix I
                                                                                              Page 2 of 3

interviewed USAID, contractor, and agent bank officials about problems they experienced in the program,
and the adequacy of actions taken to address these problems.


In the current reporting period, Business Finance auditors made a judgmental selection first-time visits to
six borrowers and three repeat visits; RIG/Budapest did not conduct any of the visits. Of the 345 borrowers
who have received loan disbursements since the inception of the program, 115 borrowers have been visited
once and 27 have had repeat visits. We conducted 49 first visits and 5 repeat visits. (See table below.)
 The visits were conducted to verify the existence of the borrowers’ businesses and their use of the loan
proceeds. Equipment and raw material purchases and reconstruction efforts that were funded by the loan
proceeds were observed during these visits.


                                        BORROWER VISITS


                            Current Period                         Cumulative

                   First        Repeat      Total      First        Repeat        Total
                   Visits       Visits                 Visits       Visits

 RIG/Budapest           0           0          0           49            5            54
 auditors

 BF internal            6           3          9           66           22            88
 auditors

 Total                  6           3          9          115           27           142



During this reporting period, Business Finance auditors performed 15 visits to 12 agent banks which are
responsible for servicing most of the loans in the program. Since the program began, RIG/Budapest and
Business Finance auditors have visited 21 agent banks. (See table below.) There have been visits to 18
of the 24 agent banks that are currently active participants in the program (representing over 95 percent of
the loan volume). Subsequent to our visits to an additional three banks, their participation in the program
was terminated. When appropriate, documentation was reviewed to determine how the banks were
monitoring the use of the proceeds, as well as the agent banks’ internal records of receipt and disbursement
of loan proceeds. There was also a selective review of invoices submitted by the borrowers for purchases
made using loan proceeds.
                                                                            Appendix I
                                                                            Page 3 of 3


                                   AGENT BANK VISITS


                        Current Period                 Cumulative

               First       Repeat    Total    First    Repeat       Total
               Visits      Visits             Visits   Visits

RIG/Budapest      0            0         0       19       12           31
auditors

BF internal       2           13         15       2       18           20
auditors

Total             2           13         15      21       30           51
                                                                                              Appendix II
                                                                                              Page 1 of 3

                     United States Agency for International Development
                                 Sarajevo, Bosnia and Herzegovina




                                                                              December 10, 1999

MEMORANDUM

TO:             James R. Bonnell, RIG/Budapest

FROM:           Erna Kerst, Acting Mission Director

SUBJECT:        Concurrent Audit of USAID/Bosnia-Herzegovina Bosnian Reconstruction Finance Facility
                (BRFF) Program for the Period October 1, 1998 through March 31, 1999

Thank you for bringing to our attention three preliminary audit findings related to BRFF agent banks,
procurement and cash flow management of BRFF accounts in your memorandum of August 17, 1999.
 The Mission continues to value highly the concurrent audit efforts of your office as we implement this
complex program. I will address each of your preliminary findings in order.

1.       In preliminary BRFF audit finding number 10, you indicated that agent banks in flagrant violation
of their agency agreements should be removed from the program. We agree. As your memorandum
pointed out, USAID and Business Finance (BF) are aggressively pursuing civil and possible criminal cases
against two agent banks. [Due to the sensitivity of these issues and the need to honor business
confidentiality, we shall refer to them as M bank and K bank in this unclassified memorandum.] These
banks were audited by the BF audit team in January and March 1999 respectively. On a four-point scale,
the M bank was found to be 1 (Unacceptable) while the K bank was rated 2 (Below Acceptable - Needs
Significant Improvement).

Despite serious subsequent attempts by the BF contractor to get the two banks to remediate their practices
and adhere to their detailed agency agreements, additional investigations revealed highly improper activities
by each bank which jeopardized the probability of full and timely repayment of several BF loans. In June
1999 a formal demand letter was sent to the M bank, and an outside attorney was retained to evaluate
several suspicious loans made through the K bank to see if valid criminal cases existed under Bosnian law.
 For both banks, detailed strategies were prepared and recommended by BF, with active Mission
consultation, to (1) recover and/or safeguard the program's loaned assets through appropriate legal action,
(2) inform and involve the Federation Banking Agency (the banking supervision authority), (3) provide the
                                                                                              Appendix II
                                                                                              Page 2 of 3

authorities with evidence of improper banking conduct and possible criminal activity, and (4) formally sever
the BF agency agreements once USAID's interests under the first three categories had been secured. The
Acting USAID Mission Director approved these detailed strategies for the two banks on August 19, 1999.


Both strategies are on track and continue to be implemented aggressively. In both cases, the agent bank
relationship has been terminated. There has been full cooperation and coordination with the Federation
Banking Agency including the sharing of indications of improper or illegal activity on the part of the banks.
 In the case of M bank where we demanded appropriate repayment or guarantees related to three disputed
loans, the bank has already paid off two of the three demands in full. We continue to negotiate a guarantee
for the third loan. Civil and legal lawsuits hve been prepared against both banks as negotiations continue.
 We will continue keep you apprised of the further implementation of the actions against both of these banks
as they unfold.

It should be kept in mind that these strategies are designed to meet the objectives stated above without
unnecessarily collapsing either of the two banks. However, if protecting the interests of the BRFF program
funds provided by the U.S. taxpayers happens to lead to the demise of one or both of these agent banks,
it will have been caused by their own actions. Such concerns will not diminish the aggressiveness with which
we implement the approved strategies.

2.       In preliminary BRFF audit finding number 11, you recommend that the Mission take immediate
action to resolve the issue related to the procurement by BRFF loan recipients of goods from Serbia. This
was done formally with the issuance of Program Implementation Letter (PIL) Number 12, dated September
8, 1999, a copy of which has been provided to you.

In the early days of the BRFF in mid-1996, USAID/B-H, and its legal counsel in Washington, came to the
conclusion that restricting financed enterprises from purchasing needed supplies and equipment from Serbia
from BRFF funds would impede the recovery of these enterprises. We have, however, encouraged
borrowers to diversify to the extent possible, and to reduce or eliminate their dependence on Serbia as a
source or market. The referenced PIL clarifies this issue for the record.

3.    In preliminary BRFF audit finding number 12, you indicated a need for improved cash flow
management of BRFF accounts. This is a particularly important subject worth addressing in depth.

Background: According to Article I of USAID Grant Agreement Number 168-L-601, which was signed
between the Government of the United States and the Government of the State of Bosnia-Herzegovina in
May 1996, the amounts obligated are “in support of the balance of payments needs of the State of Bosnia
and Herzegovina.” Furthermore, Article II of the Agreement, Disbursement of the Grant, states that “at
such times as the Parties may mutually agree, and upon satisfaction each such time of the conditions
                                                                                              Appendix II
                                                                                              Page 3 of 3

precedent set forth in sections 2.1, 2.2, and 2.3 of this agreement, USAID will deposit, from Grant
proceeds, a disbursement in the bank account or accounts designated by the Grantee, pursuant to section
2.1 c in the amounts agreed by USAID.”

Discussion: From the outset of the BRFF program, as stated in Article I of the grant agreement, its clear
primary objective has been to provide balance of payments assistance to the Government of Bosnia-
Herzegovina. Its secondary purpose is to provide credit to the productive sector in order to jump-start the
economy following the 4-year civil war. In so doing, USAID contributes, as part of a multi-donor effort,
to the Government’s effort to meet its reserve and monetary requirements in accordance with the IMF and
World Bank agreements and estimates of the required financing gap. This is also clearly indicated by the
Program Authorization Document, including Section III (b), "Goal and Purpose."

Therefore, the amounts pledged by the U.S. Government each and every year since 1996 were intended
to help the Government and the private sector meet their foreign exchange requirements, and to meet
higher-level USG objectives. Thus it was not USAID's primary objective to tie disbursements to the lending
needs of the program.

Notwithstanding the primary objective of the program, and keeping in mind the principles of prudent
forward funding and US Treasury policy, USAID sought to meet both conditions while preserving the
primary intent and purpose of the Grant. We have done so by estimating the demand for these funds based
on the best information available at the time initial disbursements (i.e., from US Treasury to the Grantee
bank account) took place. However, given the high degree of uncertainty in terms of the political and
economic situations, the supply (Grant disbursements to the Grantee’s account) and demand (disbursements
to borrowers) did not always coincide. For example, following disbursement of the last tranche in early
1999, USAID, in consultation with RIG, decided to reduce the rate of new loans in order to focus on loan
monitoring. This slowed down not only disbursement of existing loans, but also reduced the number of new
loans under consideration, thus contributing to the buildup in the pipeline of un-disbursed funds.

Conclusions: The foremost and clear objective of the BRFF program is to provide the Government of
Bosnia and Herzegovina with balance of payments assistance, with disbursements linked to the Government
meeting specific conditionalities and to the USG honoring its financial commitment, as enunciated at pledging
conferences. The timing of the disbursements to the Government accounts is part of a multi-donor effort
to jump-start Bosnia’s war-torn economy, and is based on high-level political commitment.

That having been said, the Mission continues to take all necessary steps to match disbursements with the
lending needs of the program while honoring the spirit and intention of the Grant as outlined above.
Appendix II
Page 4 of 3
                                                                                            Appendix III
                                                                                             Page 1 of 5

                                        Audited Status of the
                               Bosnian Reconstruction Finance Facility
                                        as of March 31, 1999



The Bosnian Reconstruction Finance Facility (BRFF) program, a five-year, $278 million balance-of-
payments initiative, approved by the Assistant Administrator for the Bureau of Europe and the New
Independent States (now called the Bureau for Europe and Eurasia), on May 3, 1996, is intended to
“jump-start economic growth and generate employment opportunities for the general population, including
refugees and demobilized soldiers.” The BRFF grant agreement, signed on May 7, 1996, provides balance-
of-payments assistance to Bosnia-Herzegovina to aid postwar reconstruction, provide credit to the industrial
and commercial sectors, and generate employment.

On May 16, 1996, USAID signed a task order with Development Alternatives to establish and operate
Business Finance and provide intensive, in-country commercial banker training. Development Alternatives’
team arrived in Sarajevo on June 13, 1996, to begin implementing the program. Their final contract expired
September 30, 1998. The new contractor, The Barents Group, assumed responsibility for Business
Finance on October 1, 1998.

Business Finance, composed of a team of experienced U.S. bankers, accountants, and Bosnian staff has
its headquarters at the Central Bank of Bosnia-Herzegovina, and is the primary administrator of the BRFF
program. Some of Business Finance’s responsibilities include reviewing and recommending loan
applications for approval; managing BRFF’s lending operations; and monitoring and managing the flow of
funds between the BRFF program, the borrowing enterprises, and the agent Bosnian commercial banks,
which are licensed by the Central Bank. Agreements between the two allow the commercial banks to
function as agents for Business Finance, and submit client loan applications. Business Finance also works
with the Bosnian commercial banks to help educate them in market-oriented lending policies and credit
evaluation techniques in an effort to assist the banks to develop a capable financial sector.

In addition to creating Business Finance, USAID signed a task order on June 28, 1996, with The Recovery
Group to help Bosnian businesses prepare and present proposals to Business Finance and to assist
enterprises in restarting and strengthening their operations. To implement its objectives, The Recovery
Group established Business Consulting with headquarters in Sarajevo.

BRFF Program Plan
                                                                                              Appendix III
                                                                                               Page 2 of 5

Although the BRFF program is a five-year program, its planned $278 million budget covers only a three-
year period. According to the BRFF program authorization document, $278 million was budgeted through
fiscal year 1998, with $256 million allocated for the lending program and $22 million for technical assistance
and implementation costs.

The BRFF program also provides training for Bosnian commercial bankers concentrating on loan structuring
and risk assessment. This training is intended to strengthen the Bosnian commercial banks’ ability to meet
the credit requirements of the emerging private commercial sector.


BRFF Program Status

Since the program’s inception, $264.4 million of the $278 million budget has been obligated, and $256.5
million has been disbursed. Of the $264.4 million obligated, $232.9 million went toward loans, while the
remaining $31.5 million was allocated for technical assistance and program implementation. (See Appendix
IV.)

Loan Program. Business Finance is responsible for reviewing and assessing credit risk on all loan
applications and recommending viable loans to USAID/Bosnia-Herzegovina for approval. After
USAID/Bosnia-Herzegovina approves the loan, it can be disbursed by the Central Bank of Bosnia-
Herzegovina with USAID’s approval. During the six month period ended March 31, 1999, Business
Finance recommended 64 loans valued at $12.5 million to USAID/Bosnia-Herzegovina. These
recommendations anticipated an increase of approximately 700 new jobs. The Central Bank disbursed
funds for 84 loans, which totaled $14.3 million.

Since the BRFF program began, USAID/Bosnia-Herzegovina approved 426 loans totaling $141.8 million.
 The Central Bank disbursed $114.2 million for 345 of the approved loans. Loan proposals classified as
“prospective” can potentially be recommended to USAID/Bosnia-Herzegovina for approval. Business
Finance’s cumulative lending activity is shown in the table below:
                                                                                                    Appendix III
                                                                                                     Page 3 of 5

                         BRFF LOAN SUMMARY AS OF MARCH 31, 1999

        Status of Loans                                    Number                      Amount2
                                                           of Loans                   (millions)

Applications
       Recommended by Business Finance3                       483                          $174.9
       Prospective 4                                           48                            21.6
       Rejected3                                     440                           152.1
                          TOTAL                               971                          $348.6

Recommended by Business Finance2
     Approved by USAID/B-H                                    426                          $141.8
     Awaiting approval by USAID/B-H                             6                             1.9
                                                              432                          $143.7

        Not Approved by USAID/B-H                              51                            31.2
                           TOTAL                              483                          $174.9

Approved by USAID/B-H
      Disbursed                                               345                          $114.2
      Not Yet Disbursed                                        81                            27.6


        2
           Loan amounts are recorded and disbursed in Deutsche Marks, a medium of exchange in Bosnia-Herzegovina.
Loan totals were converted using a weighted average exchange rate of 1.7073 Deutsche Marks to $1.

        3
            For discussion purposes in our report, we have considered loan recommendations by Business Finance to
consist of those recommended loans which were approved or are awaiting approval. We have presented the loans not
approved for information purposes only.

        4
            Information obtained from Business Finance’s March 31, 1999, report.
                                                                                               Appendix III
                                                                                                Page 4 of 5

                                  TOTAL                    426                       $141.8


In previous reports we provided information comparing actual results for recommended loans and
associated jobs against targets. However, discussions with Mission officials and a review of program and
contractual documentation revealed that there are different target amounts for the recommended loans and
no agreement on the target amount for associated jobs. For example, USAID program documentation
indicates that the target amount for recommended loans was $256 million for the on-lending program while
contractual documents (contracts and task orders) indicate a figure of $315 million through March 31,
1999. In the case of associated jobs targets there is no target figure contained in the original program
documentation. Contractual documents indicate that $10 million in recommended loans per month would
generate 1,500 jobs per month.

During the next reporting period we plan to pursue the issue of differing target figures in more detail. In the
meantime, for this reporting period, we will use the approved program amount of $256 million in comparing
actual recommended loans against a performance target, but we will not provide information on associated
jobs against targets. As of March 31, 1999, Business Finance recommended the approval of $143.7
million in loans, achieving 56 percent of the program targeted amount of $256 million, or falling short by 44
percent.

In prior reporting periods, shortfalls were attributed to systems and personnel restructuring intended to
streamline loan production, a shortage of lending officers available to analyze and process applications and
a change in contractors. During this reporting period, Business Finance experienced a decrease in loan
volume from the prior six month period. In fact, loan volume decreased from about $33.8 million in the
previous six months to $12.5 million for this six month period. According to program personnel, this
decrease was the result of factors such as:


        !        Increased emphasis on loan quality and loan monitoring

        !        Increased emphasis on lending smaller amounts to smaller enterprises

        !        Transition to a new primary implementing contractor


Business Finance sends monthly bills to both the borrowers and the agent banks. Borrowers make interest
and/or principal payments to their agent bank which then wires the money to the Central Bank’s Bank of
America repayment account. The funds in the repayment account have been used for future lending. The
interest and/or principal repayments are tracked and recorded by Business Finance. According to a
                                                                                              Appendix III
                                                                                               Page 5 of 5

Business Finance delinquency report as of March 31, 1999, 114 borrowers were delinquent—an increase
of 46 from the September 30, 1998 report. The delinquency rate has grown from 35 percent to 48 percent
during this six-month reporting period. For a fuller discussion of this issue, refer to Audit Report No. B-
168-99-004-P dated August 18, 1999. Business Finance has stepped up monitoring efforts in response
to our concerns. In addition, Business Finance’s loan restructuring and workout group reviews each
borrower’s situation and attempts to work out a solution or restructure the loan in order to facilitate
repayment.

Technical Assistance. During this six month reporting period, Business Finance conducted seminars and
workshops for bankers, prospective borrowers, consultants and Business Finance staff.

The seminars covered the credit application process, the quarterly monitoring report and the environmental
aspects of the lending program. Workshops were held for the lending associates and the internal audit
group conducted site visit training for the benefit of the field and lending associates. To further strengthen
bank capabilities, USAID is in the process of developing a new bank training program.
                                                                                                   Appendix IV



                       Unaudited Bosnian Reconstruction Finance Facility
                                Fund Accountability Statement
                                    as of March 31, 1999

The amounts that USAID/Bosnia-Herzegovina budgeted and obligated for the five-year Bosnian
Reconstruction Finance Facility program are shown below; however, the program has a three-year budget.
 The amount obligated for the On-Lending Program represents the balance-of-payments support to Bosnia-
Herzegovina. Of the $232.9 million transferred to Bosnia-Herzegovina, $114.2 million5 has been disbursed
as loans to borrowers. The disbursed implementation costs are amounts paid by USAID.


                                       3-Year Program                 Amount                    Amount
                                           Budget                    Obligated                 Disbursed
                                          (millions)                 (millions)                (millions)

     On-Lending Program                             $256.0                    $232.9                    $232.9
     Implementation Costs:
            Contractors 6                              17.5                      31.0                       23.1
            Audit, Program and
            Evaluation                                   1.5                         0                         0

            Environmental
            Monitoring                                    .6                         0                         0

            USAID Program
            Management                                     0                        .5                        .5

            Contingencies                                2.4                         0                         0


              Totals                                $278.0                     $264.4                   $256.5



        5
           Loans were disbursed in Deutsche Marks, a medium of exchange in Bosnia-Herzegovina. A total of 194.9
million Deutsche Marks were disbursed and converted using a weighted average exchange rate of 1.7073 Deutsche Marks
to $1.

        6
           USAID is not including the Business Consulting contract in the BRFF program budget. Additional
obligations and disbursements under that contract total $18.2 million and $15.5 Million, respectively.
